Audit
Report
         MANAGEMENT OF THE JOINT SIMULATION SYSTEM



Report No. D-2002-005                        October 12, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DAs                   Development Agents
HLA                   High Level Architecture
JSIMS                 Joint Simulation System
PM                    Program Manager
USD (AT&L)            Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                        Office of the Inspector General, DoD
Report No. D-2002-005                                                  October 12, 2001
   (Project No. D2000AL-0284.01)

                 Management of the Joint Simulation System

                                   Executive Summary

Introduction. We performed this audit in response to a request from the Director, Joint
Staff, to evaluate the management of the Joint Simulation System. The Joint Simulation
System is a joint training, analysis, and evaluation software tool that will realistically
represent the full range of military joint task force operations and provide a synthetic
battlefield. The Joint Simulation System was designated an Acquisition Category ID
program on December 16, 1999, and is projected to expend nearly $1.55 billion.

This is the second audit report on the management of the Joint Simulation System. The
first report addressed specific management concerns raised by the Director, Joint Staff.
This report addresses the broader topic of overall financial and program management of
the development and acquisition of the Joint Simulation System.

Objectives. The audit objective was to evaluate the financial and program management
of the Joint Simulation System. We also evaluated the management control program
related to the objective. See Appendix A for a discussion of the audit scope and
methodology and the review of the management control program.

Results. The Joint Simulation System Program Manager has made significant progress
toward complying with DoD security and acquisition policies. However, the Joint
Simulation System may not receive security certification and accreditation in time for
scheduled initial operating capability. Further, the Joint Simulation System acquisition
program baselines are not complete or accurate and may not be attainable. As a result,
there were no assurances that the Joint Simulation System would provide the level of
information technology security required by initial operating capability or that the
Milestone Decision Authority would be able to make informed investment decisions
concerning the acquisition of the Joint Simulation System.

Summary of Recommendations. We recommend that the Joint Simulation System
Program Manager develop an overall security policy in accordance with DS-2610-142-
01, “DoD Intelligence Information System Security Certification and Accreditation
Guide,” April 2001; complete the System Security Authorization Agreement; create a
secure trusted environment for the development of the Common Component Workstation;
require that the Joint Simulation Development Agents provide complete earned value
management information; and construct complete life-cycle cost estimates that include
unfunded requirements.

Management Comments. In general, the Joint Simulation System Program Manager
concurred with the report recommendations, found many of the draft audit report
comments to be accurate, and stated that the Joint Simulation System Program Office
will continue to pursue solutions to resolve the problems noted. Management did,
however, disagree with specific aspects of the finding and proffered alternative criteria
for implementing one of the recommendations. Although management agreed that the
Earned Value Management System has been problematic, they did not agree that there
was no assurance that the system will be delivered on time and within budget. The
Joint Simulation System Program Manager indicated that other metrics were used in
addition to the Earned Value Management System to determine whether costs and
schedules were on track, including reviews of planned/delivered source lines of code
and planned/delivered functionality for each integration event. The Joint Simulation
System Program Manager also stated that there were no unfunded requirements
associated with the Joint Simulation System. Further, the Program Manager did not
agree that the Joint Simulation System may not receive security accreditation in time for
initial operating capability. He stated that there was no obstacle to providing all
security documentation prior to system fielding and that there were no known security
requirements not currently funded.

The Program Manager stated that the Joint Simulation System security policy had been
published and that the system’s security procedures manual and security standard
operating procedures were being written. Those actions were initiated in accordance
with DS-2601-142-01, “DoD Intelligence Information System Security Certification and
Accreditation Guide,” April 2001, rather than DoD Instruction 5200.40, “DoD
Information Technology Security Certification and Accreditation Process,” December
30, 1997, recommended in the draft report. Funding has been requested to create a
secure trusted environment for the development of the Common Component
Workstation and corrective actions are ongoing to implement the recommendations
addressing the Earned Value Management System and life-cycle cost estimates. A
discussion of the management comments is in the Finding section of the report, and the
complete text of the management comments is in the Management Comments section.

Audit Response. Management actions with respect to the recommendations are
responsive. The report has been revised to incorporate provisions for use of
DS-2601-142-01, “DoD Intelligence Information System Security Certification and
Accreditation Guide,” April 2001, as a basis for developing security policy and
documentation. Regarding the management comments on the report findings, we still
maintain that there is no assurance that the system will meet cost and schedule goals for
initial operating capability. Also, based on recent consultation with the Designated
Approving Authority, we still contend that it will be difficult for the Joint Simulation
System to obtain security certification and accreditation prior to initial operating
capability. Although Joint Simulation System security personnel have made great
strides in identifying and documenting those security requirements, significant work
still remains to satisfy those requirements.




                                            ii
Table of Contents

Executive Summary                               i

Introduction
     Background                                 1
     Objectives                                 3

Finding
     Program Performance, Cost, and Schedule   4

Appendixes
     A. Audit Process
         Scope                                 13
         Methodology                           13
         Management Control Program Review     13
         Prior Coverage                        14
     B. Development Agents                     15
     C. Acquisition Guidance                   18
     D. Report Distribution                    20

Management Comments
     Program Office, Joint Simulation System   23
Background
           The Joint Simulation System (JSIMS), as of April 2001, in system development,
           is a joint training, analysis, and evaluation software tool that will realistically
           represent the full range of military joint task force operations and provide a
           synthetic battlefield. The JSIMS mission needs statement states that:
                        The mission of the JSIMS is to provide readily available,
                        operationally valid, computer-simulated environments for use by the
                        Unified Commands, their components, other joint organizations, and
                        the Services to jointly educate, train, develop doctrine and tactics,
                        formulate and assess operational plans, assess warfighting situations,
                        define operational requirements, and provide operational input to the
                        acquisition process.

           JSIMS software will be compliant with the High Level Architecture1 (HLA) in
           order to support interoperability with other DoD training and analysis
           simulations. JSIMS software will interface with command, control,
           communications, computers, and intelligence functions and equipment in the
           field. It will provide flexible support for joint force training by using efficient,
           composable simulations tailored to the users’ needs. JSIMS will be composed
           of specific land, maritime, air and space, and other functional domains that will
           operate in a joint synthetic battlespace. It will create a coherent operational
           environment between the levels of war, synchronized between types of events,
           and realistic in the context of the specific joint training scenarios.

           JSIMS software will provide the core infrastructure and life-cycle applications to
           support the effective design, planning, preparation, execution, and post-
           execution assessment for joint training exercises and other uses. JSIMS will
           facilitate scenario design, development, and execution by providing tools that
           systematically link scenario objectives, events, performance measures, and
           feedback. The Common Component Workstation is a key component of JSIMS
           because it comprises most of the user interfaces including scenario generation,
           exercise control, unit control, and evaluation and reporting.

           Management and Oversight. On December 16, 1999, the Under Secretary of
           Defense for Acquisition, Technology, and Logistics (USD [AT&L]) restructured
           JSIMS. The USD (AT&L) designated the Army as the Program Executive
           Office for JSIMS, and the Commander, U.S. Army Simulation, Training, and
           Instrumentation Command, as the Program Manager (PM). The JSIMS PM
           reports directly to the USD (AT&L) with coordination through the Army
           Acquisition Executive. The JSIMS PM also provides financial reporting to the




1
    HLA is a software architecture structure for major functional elements, interfaces, and design. It
    pertains to all DoD simulation applications and provides a common framework for the interoperability
    of simulations, within which specific system architectures can be defined.

                                                      1
           Joint Staff. The USD (AT&L) also designated JSIMS, including all of its
           Service and agency components, as an Acquisition Category ID2 program and
           further directed that JSIMS transition to the HLA. The Joint Staff Director for
           Operational Plans and Interoperability is responsible for the fiscal oversight of
           the JSIMS common components. The JSIMS PM executes those funds on
           behalf of the Joint Staff.

           JSIMS has nine Development Agents (DAs), each responsible for the
           development of different aspects of JSIMS. The nine DAs represent each
           Military Department, the Intelligence Community, and the Office of the
           Secretary of Defense. The Service DAs are developing JSIMS components that
           can independently meet the training needs of the respective Services. See
           Appendix B for a complete list of the JSIMS DAs and a description of their
           responsibilities.

           The Assistant Secretary of Defense for Command, Control, Communications,
           and Intelligence oversees and reviews JSIMS implementation of the Clinger-
           Cohen Act and DoD Instruction 5200.40, “DoD Information Technology
           Security Certification and Accreditation Process,” December 30, 1997.3

           System Development. JSIMS was designated an Acquisition Category ID
           program on December 16, 1999. Prior to that date, JSIMS was an Acquisition
           Category II program, and it was not required to pass milestone reviews
           conducted by the Defense Acquisition Board. On September 10, 1996, the USD
           (AT&L) issued a policy memorandum designating HLA as the standard
           technical architecture for all DoD simulations. The policy required any
           simulation not compliant with HLA by October 1, 2000, to be retired, unless a
           waiver was obtained from the Director, Defense Research and Engineering.
           Although, the JSIMS core development contract was awarded in December
           1996, the program did not move toward HLA compliance until USD (AT&L)
           directed JSIMS management to do so in December 1999, almost 3 years after
           JSIMS development began.

           During our audit, we tried to determine how much money was spent on
           development efforts that were undertaken after September 1996 and could not
           transition to the new HLA architecture. Because of the lack of detailed financial
           information, we could not calculate a complete total. However, we were able to
           estimate that at least $18.4 million was unnecessarily spent on development


2
    An Acquisition Category ID program is designated by the Under Secretary of Defense for Acquisition,
    Technology, and Logistics as a Major Defense Acquisition Program, and is estimated to require a total
    expenditure for research, development, test and evaluation of more than $365 million or, for
    procurement, of more than $2.19 billion in FY 2000 constant dollars.

3
    DoD Instruction 5200.40 defines the activities leading to security certification and accreditation. The
    objective of the DoD Information Technology Security Certification and Accreditation Process is to
    establish a DoD standard infrastructure-centric approach that protects and secures the entities
    comprising the Defense Information Infrastructure. See Appendix C for more detail.


                                                       2
     efforts that could not be transitioned. As certain DAs could not provide any
     cost data, the $18.4 million estimate may be significantly understated.

     The initial deployment blocks of JSIMS software, Block I and Block II, currently
     in the System Development and Demonstration Phase B of development, are
     scheduled for a Milestone C, Production and Deployment, Defense Acquisition
     Board review in September 2002. Partially because of the initial reluctance to
     use the HLA, the initial operating capability for JSIMS, originally scheduled for
     December 1999, has been delayed three times, and it is scheduled for March
     2003.

     Funding. JSIMS is projected to expend nearly $1.55 billion ($1.13 billion in
     research, development, test, and evaluation funds; $0.18 billion in procurement
     funds; and $0.24 billion in operation and maintenance funds) from 1996 through
     2007. Eight of the DAs are independently funded through respective departments
     or agencies. The ninth DA is funded directly by the JSIMS PM. The Army is the
     single largest DA, with a projected budget of $627 million from 1996 through
     2007.

Objectives
     The audit objective was to evaluate the financial and program management of the
     JSIMS. We also reviewed management controls as they related to the audit
     objectives. See Appendix A for a discussion of the audit scope and methodology,
     the review of the management control program, and prior audit coverage.




                                         3
                    Program Performance, Cost,
                    and Schedule
                    The Joint Simulation System (JSIMS) Program Office has made
                    significant progress toward complying with DoD security and acquisition
                    policies. However, JSIMS may not receive security certification and
                    accreditation in time for scheduled initial operating capability because
                    not all information technology security requirements have been satisfied.
                    In addition, the acquisition program baselines for JSIMS were not
                    complete or accurate and may not be attainable because:

                            •   the JSIMS Earned Value Management System has not provided
                                management with adequate cost and schedule information;

                            •   the JSIMS management has not constructed complete life-
                                cycle cost estimates; and

                            •   there were validated and emerging system requirements for
                                which funding had not been established.

                    As a result, there were no assurances that JSIMS would provide the level
                    of information technology security required by initial operating capability
                    or that the Milestone Decision Authority would be able to make informed
                    investment decisions concerning the JSIMS acquisition.

Mandatory Guidance
           The Office of Management and Budget and DoD provide managers with guidance
           for acquiring information technology investments and safeguarding information.
           Appendix C describes the guidance as it relates to the JSIMS acquisition.

           Acquisition Category ID Compliance. On December 16, 1999, the Under
           Secretary of Defense for Acquisition, Technology, and Logistics issued a
           memorandum designating JSIMS as an Acquisition Category ID program. An
           Acquisition Category ID program is a Major Defense Acquisition Program subject
           to review by the Defense Acquisition Board. DoD Instruction 5000.2, “Operation
           of the Defense Acquisition System,” Change 1, January 4, 2001, outlines the
           documents required for Acquisition Category ID programs. When the audit began
           in September 2000, required Acquisition Category ID program documents such as
           the acquisition strategy, the test and evaluation management plan, and the risk
           management plan did not exist. Further, the JSIMS program was not in
           compliance with the information technology acquisition requirements of the
           Clinger-Cohen Act, that requires economic analysis, performance measures,
           business process reengineering, and an information assurance strategy.
           Specifically, the JSIMS PM had no documentation regarding JSIMS compliance
           with the Clinger-Cohen Act.4 During the course of the audit, the new JSIMS

4
    The Clinger-Cohen Act governs the acquisition of information technology, which requires Chief
    Information Officer monitoring of system acquisition and the establishment of performance measures
                                                     4
           management team worked diligently to generate the documents needed to comply
           with DoD policy and congressional direction. Although some of those documents
           were not finalized, the JSIMS PM has made every effort to adhere to DoD policy,
           and he is making significant progress towards attaining compliance, thereby
           reducing our concerns in those areas. However, JSIMS and its Common
           Component Workstation will have a difficult time obtaining system security
           certification and accreditation. Further, several factors may impact the
           attainability of JSIMS cost and schedule objectives.

JSIMS Information Technology Security Certification and
  Accreditation
           Prior to March 2000, the JSIMS Program Office did not take action to comply
           with DoD Instruction 5200.40, “DoD Information Technology Security
           Certification and Accreditation Process,” December 30, 1997 or with the DS-
           2610-142-01, “DoD Intelligence Information System Security (DoDIIS)
           Certification and Accreditation Guide,” April 2001. Since that time, the JSIMS
           PM has made significant progress towards complying with those requirements;
           however, a considerable amount of work remains to attain system security
           certification5 and accreditation6 for JSIMS and its Common Component
           Workstation. Additional obstacles that need to be overcome include the approval
           of the System Security Authorization Agreement.

           Security Certification and Accreditation of JSIMS. The JSIMS may not
           attain security certification and accreditation for Version Release Module 1,
           scheduled for March 2002; Milestone C, Production and Deployment, scheduled
           for September 2002; or for initial operating capability currently scheduled for
           March 2003. JSIMS interacts within a complex environment, including the
           Intelligence Community, which heightens concern over system security.
           Intelligence Community personnel identified the following concerns that
           increase the risk associated with JSIMS security:

                    •   lack of a completed system security procedures manual;

                    •   prior involvement of foreign nationals in JSIMS software
                        development, especially in the Common Component Workstation and
                        the Synthetic Natural Environment;

                    •   lack of a breakdown of specific responsibility for JSIMS system
                        security;

    regarding progress towards meeting program objectives.
5
    Security certification is a comprehensive evaluation of the technical and non-technical security features
    of an information technology system and other safeguards, made in support of the accreditation process,
    to establish the extent that a particular design and implementation meets a set of specified security
    requirements.
6
    Accreditation is a formal declaration by the Designated Approving Authority that an information
    technology system is approved to operate in a particular security mode using a prescribed set of
    safeguards at an acceptable level of risk.

                                                       5
       •   lack of a developed set of rules for the dissemination of secret
           collateral intelligence across the run time interface; and

       •   lack of a full understanding of how different software systems
           developed by different contractors and DAs interact.

The decentralized management of JSIMS, and the perception by the JSIMS PM
and DAs that JSIMS is just a training system, resulted in security receiving
minimum attention prior to the December 1999 reorganization directed by the
Under Secretary of Defense for Acquisition, Technology, and Logistics.
Beginning in March 2000, the JSIMS PM made system security certification and
accreditation a major priority. However, JSIMS will have a difficult time
achieving certification and accreditation by March 2003.

System Security Authorization Agreement Criteria. The purpose of the System
Security Authorization Agreement, required by DoD Instruction 5200.40, is to
address each of the security items detailed in the Security Requirements
Traceability Matrix. The DS-2610-142-01 DoDIIS Security Guide also contains
such requirements. Therefore, the agreement should contain all the information
necessary for the collateral Designated Approving Authority, the sensitive
compartmented information Designated Approving Authority, and ultimately, the
system Designated Approving Authority to make a decision regarding the
approval to operate the system. It is a formal agreement between the system PM,
the Designated Approving Authority community, certification authorities, and
user representatives. The agreement is used throughout the certification process
to guide actions, document decisions, specify information technology security
requirements, document certification tailoring and level-of-effort, identify
potential solutions, and maintain operational system security.

System Security Authorization Agreement Developed for JSIMS. The
JSIMS PM has made enormous progress in developing the System Security
Authorization Agreement since our initial visit. However, the System Security
Authorization Agreement was not complete enough to obtain accreditation and
certification and did not satisfy the minimal requirements of DoD Instruction
5200.40 or the DS-2610-142-01 DoDIIS Security Guide. The System Security
Authorization Agreement, prepared by the JSIMS Program Office using the
DS-2610-142-01 DoDIIS Security Guide, did not include the following topics,
completed in a manner acceptable to the Designated Approving Authority, as
required for system accreditation:

       •   data flow (including data flow diagrams),
       •   security environment,
       •   IT system characteristics,
       •   roles and responsibilities, and
       •   personnel and technical security controls.

We informed the Designated Approving Authority of the incomplete sections of
the JSIMS System Security Authorization Agreement and he agreed that the
information associated with those sections is needed for system certification and
accreditation. Because JSIMS has a decentralized management structure, eight of
the nine DAs act independently and provide their own funding. If the required

                                    6
       sections or acceptable alternatives are not adequately documented in the System
       Security Authorization Agreement, the DAs may not have a clear definition of
       what they are expected to do to ensure the success of JSIMS.

       Certification and Accreditation Approval for the Common Component
       Workstation. The JSIMS Common Component Workstation software will
       operate in two security domains. One is an upper security enclave that processes
       top secret and sensitive compartmented information, and the other is a lower
       security enclave that processes data at the secret level and lower. Early in the
       JSIMS development stage, the JSIMS PM did not design security measures into
       JSIMS and the PM did little to address security until March 2000. The Common
       Component Workstation software was not constructed in a trusted environment7
       because the PM for the Warfighting Simulation System, tasked with developing
       the Common Component Workstation, did not provide proper instructions to the
       contractor. Further, the System Security Authorization Agreement does not
       include the information necessary for the JSIMS Common Component
       Workstation software development to meet certification and accreditation
       requirements. The JSIMS PM will have difficulty addressing those security issues
       prior to the established initial operating capability date.

       The National Reconnaissance Office is developing a user interface tool that will
       allow secure operations if the Common Component Workstation does not receive
       accreditation. It is coordinating the development with the Warfighters’ Simulation
       Intelligence Module and the Defense Intelligence Agency Object Oriented Model
       of Intelligence Operations. Personnel within the National Reconnaissance Office
       stated that they developed the user interface tool because they have no confidence
       that the Common Component Workstation will be certified by Version Release
       Module 1.

Cost and Schedule
       Several factors may negatively impact the JSIMS cost and schedule. We
       determined that the JSIMS Earned Value Management System does not provide
       management with adequate cost and schedule information. Also, the JSIMS
       Program Office has not constructed complete life-cycle cost estimates and has not
       included additional security requirements and emerging requirements in the life-
       cycle cost estimates or budgets. Further, the Army Threat System Management
       Office has not completed a JSIMS System Threat Assessment Report.

       Earned Value Management System. DoD Regulation 5000.2-R (Interim),
       “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
       Major Automated Information Systems (MAIS) Acquisition Programs,”




7
A trusted environment is an environment where software is constructed by U.S. personnel who are
cleared to the secret level and who work in a facility cleared for secret information.

                                                7
January 4, 2001, (finalized on June 10, 2001) states that the PM will obtain
integrated cost and schedule performance data to monitor program execution.
PMs must require contractors to develop and use internal management control
systems that:

       •   produce data indicating work progress,
       •   properly relate cost,
       •   identify schedule and technical accomplishment,
       •   are valid, timely and auditable, and
       •   provide DoD PMs with summarized information.

Data will be compiled and reported in accordance with the Earned Value
Management System, unless the contract is valued at less than $73 million, in
which case the data may be compiled in alternative ways. In response to this
requirement, the JSIMS PM instituted an earned value reporting system that
required each DA to provide earned value information to the JSIMS PM on a
monthly basis.

The JSIMS PM compiles the data from the various DAs into a central, monthly
earned value report that is intended to provide the JSIMS PM with information
that indicates whether the program is meeting cost and schedule goals. However,
the earned value data compiled by the JSIMS PM are incomplete and unreliable.
The most current earned value report as of March 2001 was produced in January
2001. The January report included outdated data for the National Reconnaissance
Office and the United States Marine Corps portions of JSIMS. Although the
Defense Intelligence Agency provided data for its portion of JSIMS for December
2000 and January 2001, it did not provide data prior to that period. Also,
although the reports appear to show that the National Security Agency portion of
JSIMS is both on schedule and on target for cost, National Security Agency
personnel advised their Earned Value Management System for this contract was
not based on planned work. This contract was rebaselined in April 2001 and the
contract will begin reporting actual performance indices. Personnel from the Air
Force stated that the current prime development contract for their portion of
JSIMS does not require the contractor to provide earned value information.
However, the contractor has been providing the earned value information to the
PM. The Air Force data indicate that the Air Force portion of JSIMS is about 2
percent behind schedule and 1 percent under cost. The Air Force stated that a
planned rebaselining of the contract will ensure that the appropriate Earned Value
Management System requirements are stated.

As of January 2001, the Navy portion of JSIMS reported 7.6 percent behind
schedule. The Army portion of JSIMS reported 3.7 percent behind schedule and
3.8 percent over cost. The earned value documents imply that in order for the
Army portion to meet the delivery date for Version Release Module 1.0 (March
2002), some requirements originally intended to be satisfied with Version Release
Module 1.0 will be deferred to later versions of JSIMS. A more detailed review
of the variances associated with specific aspects of the Army portion of JSIMS
revealed that the software development was actually $4.8 million (14 percent)
over the projected cost. The JSIMS PM noted that the Army has met its delivery
dates for JSIMS integration events including planned delivery of source lines of
code and associated functions. The insufficient earned value reports, coupled with
the Army and Navy negative schedule variances, provided no assurance that the
                                     8
JSIMS program would be delivered on time for scheduled initial operating
capability and within budget. Furthermore, because of the incomplete nature of
the earned value reports, the JSIMS PM could be caught unaware of cost and
schedule variances that might materially impact JSIMS.

Also, the various DA earned value reports reflect the schedule status based on
internal DA schedules and not the overall JSIMS schedule. Earned value reports
have no notation as to how the particular DA schedule relates to the overall
JSIMS schedule. Therefore, although an earned value report may indicate that a
particular DA portion of JSIMS is behind schedule, it does not necessarily mean
that the overall JSIMS schedule is impacted. The JSIMS PM stated that the DA
reports should note how a variance effects the overall JSIMS integration events.
However, the reviewed reports contained no documentation to indicate how the
integration events were impacted. Although the JSIMS PM expressed confidence
that JSIMS will be delivered on time and within budget, the Earned Value
Management System for JSIMS provides no such assurance.

Life-Cycle Costs. DoD Regulation 5000.2-R (Interim) requires, for reporting
purposes, the PM life-cycle cost estimate as defined in DoD 5000.4-M, “Cost
Analysis Guidance and Procedures,” December 1992. DoD Regulation 5000.2-R
(Interim) also requires that every acquisition program establish program goals,
thresholds, and objectives for the minimum number of cost, schedule, and
performance parameters that describe the program over its life cycle. DoD
Regulation 5000.2-R (Interim) defines affordability as “the degree to which the
life-cycle cost of an acquisition program is in consonance with the long-range
investment and force structure plans of the DoD or individual DoD Component.”
The PM is required to prepare a life-cycle cost estimate for all Acquisition
Category I program initiation decisions and at all subsequent program decision
points.

DoD Regulation 5000.2-R (Interim) also requires that the estimating activity
explicitly base the life-cycle cost estimate on program objectives, operational
requirements, contract specifications, careful risk assessments, and a DoD
program work breakdown structure for Acquisition Category I programs. The
life-cycle cost estimate must be comprehensive to include all cost elements, such
as operation and support costs, that affect the decision to proceed with
development or production of the system, regardless of funding source or
management control. In addition, DoD Regulation 5000.2-R (Interim) requires
the PM to base software systems design and development on systems
engineering principles that:

       •   elect the programming language in context of the systems and software
           engineering factors that influence overall life-cycle costs, risks, and the
           potential for interoperability; and

       •   consider embedded training and maintenance techniques to enhance
           user capability and reduce life-cycle costs.

The JSIMS PM and the DAs are constructing life-cycle cost estimates scheduled
for completion during the summer of 2001. The JSIMS PM and the DAs did not


                                     9
   have life-cycle cost estimates that identified complete JSIMS costs. The JSIMS
   PM and the DAs did not construct cost estimates beyond FY 2007, even though
   the system has an estimated life through 2022.

   Unfunded Requirements. Certain security requirements and validated and
   emerging program requirements, not accounted for in the JSIMS budget, need to
   be included in JSIMS life-cycle cost estimates. During the audit, three of the DAs
   expressed concerns about unfunded requirements for their portion of the JSIMS
   development. The Defense Intelligence Agency had the most significant unfunded
   requirement for an additional $35.5 million from FY 2002 through FY 2007, that
   is needed to provide the complete minimum essential functionality approved by
   the JSIMS Joint Requirements Control Board. The unfunded requirement
   included increased automation of organizational behavior and analysis fusion,
   support for dissemination of imagery and video products, and several other
   capabilities that would result in a reduction in intelligence personnel needed to
   support exercises. The JSIMS PM denied that this is an unfunded requirement;
   however, DIA recorded it as such.

   Managers for the Army portion of JSIMS claimed that an additional $11.0 million
   was needed between FY 2001 and FY 2007, including $4.4 million for additional
   software development. A component of the Air Force portion of the JSIMS
   required an additional $1.5 million from FY 2002 through FY 2006. The Air
   Force recognized that functionality was otherwise jeopardized, and it
   acknowledged the shortfall and intends to provide the needed funds. Managers
   for the Navy portion of JSIMS described their funding as uncertain because of
   emerging requirements. Navy personnel were unable to calculate the amount of
   funding that will potentially be needed to satisfy its emerging requirements if
   validated. The JSIMS PM believed there were no unfunded requirements because
   the JSIMS PM used cost as an independent variable. The JSIMS PM would
   complete as many requirements in the Operational Requirements Document as
   funding permits.

   System Threat Assessment Report. As of April 2001, a JSIMS System Threat
   Assessment Report has not been completed. A System Threat Assessment Report
   describes the threat that a particular system is projected to encounter during its
   service life. The JSIMS System Threat Assessment Report is being developed by
   the Threat System Management Office in Huntsville, Alabama, and it is scheduled
   to be completed between June 2001 and September 2001. Once completed, the
   threat assessment report has to be validated by the Defense Intelligence Agency.
   Because this document was not developed prior to the JSIMS development effort,
   it is possible that JSIMS may not have addressed key projected system threats. If
   validated threats are identified that JSIMS needs to be protected against, additional
   costs and delays may be incurred.

Summary
   Historically, JSIMS has had problems that have resulted in schedule delays and
   increased costs. The new JSIMS management team has made significant progress
   toward correcting various identified problems. Although the JSIMS PM has made
   extensive inroads to address system security certification and accreditation issues,
   JSIMS and the Common Component Workstation will have a difficult time
                                       10
    obtaining system security certification and accreditation prior to initial operating
    capability. The JSIMS PM needs to initiate action to create a trusted environment
    for development of a Common Component Workstation. The JSIMS PM also
    needs to complete all minimally required sections in the System Security
    Authorization Agreement. Finally, the lack of a reliable Earned Value
    Management System coupled with potential unfunded requirements, leave the
    JSIMS Program continually vulnerable to additional negative cost and schedule
    impacts and reduced system capabilities. As a result, there are no assurances that
    JSIMS will provide the level of information technology security required by initial
    operating capability or that the Milestone Decision Authority will be able to make
    informed investment decisions on the JSIMS acquisition.

Management Comments on the Finding and Audit Response
    Program Office, Joint Simulation System Comments. The JSIMS PM stated
    that he generally found many of the audit comments to be accurate, and he
    indicated that the JSIMS Program Office would continue to pursue solutions to
    resolve the problems noted. However, management disagreed with certain
    specific aspects of the Finding. Management agreed that the Earned Value
    Management System has been problematic, but did not agree that there was no
    assurance that the system would be delivered on time and within budget. The
    PM indicated that other metrics were used in addition to the Earned Value
    Management System, to determine whether costs and schedules were on track,
    including reviews of planned/delivered source lines of code and
    planned/delivered functionality for each integration event. The PM also stated
    that there were no unfunded requirements associated with JSIMS. Further, the
    PM did not agree that JSIMS may not receive security accreditation in time for
    initial operating capability. He stated that there was no obstacle to provide all
    security documentation prior to system fielding and that there were no known
    security requirements that were not funded. See the Management Comments
    section of the report for a complete text of the management comments.

    Audit Response. We still maintain that there is no assurance that JSIMS will
    meet cost and schedule goals for initial operating capability and that not all
    requirements are documented and funded. Despite the use of a variety of
    metrics, the JSIMS PM is required to institute an accurate and complete Earned
    Value Management System. Also, based on recent consultation with the
    Designated Approving Authority, it will be difficult for JSIMS to obtain security
    certification and accreditation prior to initial operating capability. Even though
    the JSIMS security personnel have made great strides in identifying security
    requirements both during the audit and since the completion of our audit field
    work, significant work still remains to satisfy those requirements. In some
    cases, the JSIMS PM disagreed with details in the audit report, not because the
    details were inaccurate, but because corrective actions had been initiated or
    completed since the end of our audit field work. We believe that our report was
    accurate at the time the field work was completed, and we credit the JSIMS PM
    for initiating prompt corrective action.




                                        11
Recommendations, Management Comments and Audit
  Response
    In response to management comments on the draft of this report,
    Recommendation 1. was revised to reflect adherence to DS-2610-142-01, “DoD
    Intelligence Information System Security Certification and Accreditation
    Guide,” April 2001 rather than DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process,” December 30,
    1997.

           1. We recommend the Joint Simulation System Program Manager in
    accordance with DS-2610-142-01, “DoD Intelligence Information System
    Security Certification and Accreditation Guide,” April 2001:

                a. Develop an overall security policy, including a security
    procedures manual, and system security requirements;

                   b. Include all sections required by DS-2610-142-01 “DoD
    Intelligence Information System Security Certification and Accreditation
    Guide,” April 2001 in the System Security Authorization Agreement; and

              c. Create a secure trusted environment for developing the
    Common Component Workstation;

           2. We recommend the Joint Simulation System Program Manager
    in accordance with DoD Regulation 5000.2-R (Interim) “Mandatory
    Procedures for Major Defense Acquisition Programs (MDAPS) and Major
    Automated Information Systems (MAIS) Acquisitions Programs,” January
    4, 2001:

                 a. Require Development Agents to provide complete earned
    value information; and

                 b. Construct complete life-cycle cost estimates and include
    requirements for which funding has not been established.

    Program Office, Joint Simulation System Comments. The Program Manager
    stated that the Joint Simulation System security policy has been published and
    that the system security procedures manual and security standard operating
    procedures are being written. These actions were initiated in accordance with
    DS-2610-142-01, “DoD Intelligence Information System Security Certification
    and Accreditation Guide,” April 2001 rather than DoD Instruction 5200.40,
    “DoD Information Technology Security Certification and Accreditation
    Process,” December 30, 1997, recommended in the draft report. Funding has
    been requested to create a secure trusted environment for the development of the
    Common Component Workstation and corrective actions are ongoing to
    implement the recommendations addressing the Earned Value Management
    System and life-cycle cost estimates.

    Audit Response. We considered management comments to be responsive.
                                       12
Appendix A. Audit Process

Scope
    We performed this audit in response to a request from the Director, Joint Staff, to
    evaluate the management of the Joint Simulation System. This is the second audit
    report on the management of the Joint Simulation System. The first report
    addressed specific management concerns raised by the Director, Joint Staff. This
    report addresses the broader topic of overall financial and program management
    of the development and acquisition of the Joint Simulation System.

    We examined program management of JSIMS from September 2000 through
    April 2001 and reviewed documentation dated from November 1996 through
    April 2001. We visited the JSIMS PM and each of the nine DAs. We reviewed
    and analyzed memorandums, modifications to contracts, military
    interdepartmental purchase requests, accounting reports, correspondence,
    schedules, briefing charts, and operational and security documents.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Information Management and Technology high-risk area.

Methodology
    Audit Type, Dates, and Standards. We performed this program audit from
    September 2000 through April 2001 in accordance generally accepted Government
    auditing standards except that we were unable to obtain an opinion on our system
    of quality control. The most recent external quality control review was
    withdrawn on March 15, 2001, and we will undergo a new review. Accordingly,
    we included tests of management controls, as considered necessary.

    Use of Computer-Process Data. We did not rely on computer-processed data to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and Defense contractors. Further details are
    available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of those controls.


                                       13
    Scope of the Review of the Management Control Program. For the JSIMS
    Program, we reviewed the plan for Internal Management and Control of Funds
    and management self-evaluation. Management’s self-evaluation had uncovered
    weaknesses prior to our audit, and management had taken corrective action.

    Adequacy of Management controls. We identified material management
    control weaknesses as defined in DoD Instruction 5010.40. System security
    controls were incomplete. The earned value management system controls were
    unreliable, and acquisition program baselines designed to assure that cost and
    schedule goals are met were unsatisfactory. Management actions taken during
    the course of the audit such as development of a Risk Management Plan
    combined with implementation of this report’s recommendations will correct the
    weaknesses. We will provide a copy of this report to the senior official
    responsible for management controls in the office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics.

Prior Coverage
    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-089, “Management Issues at the
    Joint Simulation System Program Office,” March 30, 2001

    Inspector General, DoD, Report No. 97-138, “Requirements Planning and the
    Impact On Readiness of Training Simulators and Devices,” April 30, 1997




                                      14
Appendix B. Joint Simulation System
            Development Agents
       JSIMS will incorporate simulations across the full range of military operations.
       Simulations will also include geophysical, meteorological, oceanographic, and
       environmental factors. Those simulations will be provided by DAs from the
       Army, the Navy, the Air Force, and the Marine Corps for each warfare domain
       (land, maritime, air/space, and amphibious operations). In addition, DAs from
       the Intelligence Community (the Defense Intelligence Agency, the National
       Reconnaissance Office, and the National Security Agency) will provide
       intelligence related simulations. The DAs develop JSIMS software components,
       field and deploy the system, and provide all required software support. The
       integration of software is a collaborative activity in that it is led and managed by
       the JSIMS PM but supported by each DA partner.


Army
       The Army is developing the Warfighters’ Simulation System, that includes the
       Warfighters Simulation System Intelligence Module. The Warfighters’ Simulation
       System will replace the Corps Battle Simulation System, the Corps Battle
       Simulation in Joint Training Confederation, the Combat Service Support Training
       Simulation System, the Brigade/Battalion Battle Simulation System, and the
       Tactical Simulation System. The system will provide simulation of the land
       warfare battle elements for JSIMS and will receive battle elements from JSIMS in
       areas such as joint and maritime operations, air and space, and intelligence.


Navy
       The Navy portion of JSIMS is known as Maritime. Maritime is a technical
       effort that will provide validated battle elements that represent the maritime
       domain and that support the development of specialized and unique interfaces
       required for executing Navy and Marine Corps training evolutions. JSIMS will
       be used to conduct in-port shipboard combat system team training and at-sea
       exercises for training individual ship combat teams. Maritime is also being
       developed to replace legacy Navy training systems to include the Research
       Evaluation and Systems Analysis System and the Enhanced Naval Warfare
       Gaming System, that are due to lose funding by FY 2002 and FY 2004
       respectively.


Air Force
       The Air Force portion of JSIMS contains two components. The first component,
       known as the National Air and Space Model, provides Air Force aerospace
       simulation to JSIMS. Those simulations include battle elements such as aircraft
       (both fixed wing and rotary wing), weapons, electronic jammers, and

                                            15
     generic satellite platforms. The system will provide missions, organizations,
     and civil environment representations. The National Air and Space Model will
     replace the Air Force Air Warfare Simulation training system.

     The second Air Force JSIMS component is the Joint Operations Information
     Simulation. The component will provide the JSIMS audience with models for
     intelligence collection, intelligence reporting, and aspects of electronic warfare.
     The simulation brings a comprehensive capability to perform intelligence
     collection through air breathing sensors and can demonstrate electronic warfare
     capabilities against radars, and tactical related applications to command, control,
     communications, computer, and intelligence interfaces. The Joint Operations
     Information Simulation will not replace any Air Force legacy systems.


Marine Corps
     The Marine Corps is not performing any JSIMS system development but is
     providing requirements and funding to the Army and Navy DAs to leverage its
     portion of JSIMS. The Marine Corps DA depends on the Army for land-based
     operation simulations and the Navy for sea-based simulations for its model
     development. JSIMS is a vital piece of training equipment to the Marine Corps
     because it will replace the Marine Air-Ground Task Force Tactical Warfare
     Simulation, the current Marine Corps training simulation program.


Defense Intelligence Agency
     The Defense Intelligence Agency Object Oriented Model of Intelligence
     Operations will simulate the U.S. national intelligence cycle at joint task force,
     theater, and national levels. The simulation will represent the intelligence cycle
     systems, products, and processes performed or facilitated by the intelligence
     components. The system will operate in both the collateral and sensitive
     compartmented information enclaves of JSIMS and will provide intelligence
     models. The Object Oriented Model of Intelligence Operations development
     represents new national-level intelligence functionality that is not currently
     represented within the current Joint Training Confederation. There is no
     predecessor for this system.


National Reconnaissance Office
     Developed by the National Reconnaissance Office, the National Simulation
     Program is the imagery intelligence component of JSIMS. It is designed to
     simulate the imagery intelligence cycle including collection management, resource
     tasking, and delivery of a message traffic textual product to respond to the initial
     tasking for Version Release Module 1.0. Messages will generally be at the
     collateral level. Future models will include a synthetic image. The National
     Imagery and Mapping Agency will be involved in the simulation process for
     imagery analysis when National Simulation Program becomes operational. The
     current comparable simulation system in use is the National Wargaming System
     managed by the National Reconnaissance Office.
                                         16
National Security Agency
     The National Security Agency is providing JSIMS Joint Signals Intelligence
     Simulation, that will provide simulations of signal intelligence capability to the
     warfighting community. The simulation will portray national-level signals
     intelligence collection, processing, analysis, and reporting functions to the
     warfighter. The system will produce signal intelligence products for the JSIMS
     training exercise in the same quantity and quality as a real operation. The
     simulation will interact with the intelligence portions of the other DAs to provide
     a comprehensive intelligence picture of the battlespace to the warfighter.


Joint Development Agent
     The Joint DA is building two main functions for JSIMS; the Common Component
     Workstation and the joint models. The Common Component Workstation
     provides most of the user interfaces for JSIMS. It implements functions such as
     scenario generation, exercise control, unit control, and evaluation and reporting.
     It does not implement the exercise planning, technical control, or information
     system security control functions. The joint models will simulate command units
     at the joint task force level. Joint models operate in one of the following modes:
     role player without automation, role player with automation, or training audience.
     The Joint DA is also responsible for deployment, logistics, and training for joint
     locations. The Joint DA is not developing a system to replace a legacy system but
     is creating a new concept of functionality.


Defense Modeling and Simulation Office
     The Defense Modeling and Simulation Office is the builder and advocate for High
     Level Architecture (HLA) throughout DoD. HLA identifies major functional
     elements, interfaces, and design rules pertaining as feasible to all DoD simulation
     applications, and provides a common framework within which specific system
     architectures can be defined. The Defense Modeling and Simulation Office is
     responsible for providing the HLA and run time infrastructure as a key component
     of the core of the JSIMS Program. The Defense Modeling and Simulation Office
     is not providing or replacing any simulations.




                                         17
Appendix C. Acquisition Guidance
    The Office of Management and Budget and DoD provide managers with guidance
    for acquiring information technology investments and safeguarding information
    assets.

Office of Management and Budget
    Office of Management and Budget Circular No. A-130, “Management of Federal
    Information Resources,” November 30, 2000, implements numerous public laws
    and other Office of Management and Budget guidance that address acquisition of
    information technology investments and security of personal information. In
    accordance with Cohen-Clinger Act of 1996, Circular A-130 requires that:

           •   Cost benefit analyses be prepared for each system throughout its life
               cycle.

           •   Performance measures be implemented to provide timely information
               regarding the progress of an information technology program in terms
               of cost and capability to meet specified requirements, timeliness, and
               quality.

           •   Major information systems proceed in a timely fashion toward agreed-
               upon milestones in an information system life cycle.

           •   Chief information officers monitor and evaluate the performance of
               information technology investments through the capital planning
               investment control process, and advise the agency head on whether to
               continue, modify, or terminate a program or project.

DoD Guidance
    DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
    March 15, 1996 (subsequently revised on October 23, 2000), establishes a
    disciplined, life-cycle management approach for acquiring quality products. DoD
    Directive 5000.1 provides mandatory policies and procedures for the management
    of acquisition programs, including procedures to ensure program stability.

    DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
    Automated Information Systems (AISs),” March 21, 1988, provides mandatory
    guidance for safeguarding classified information. It implements security
    safeguard provisions of Office of Management and Budget Circular No. A-130,
    and is a reference source for DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process (DITSCAP),”
    December 30, 1997.



                                       18
DoD Instruction 5000.2. DoD Instruction 5000.2, “Operation of the Defense
Acquisition System,” Change 1, January 4, 2001, establishes a general approach
for managing system acquisitions with best life-cycle solutions for satisfying user
requirements. DoD Instruction 5000.2 requires chief information officers to
confirm that mission-critical and essential information systems are developed in
accordance with the Clinger-Cohen Act of 1996 before approvals are granted for
contract award.

DoD Regulation 5000.2-R. DoD Regulation 5000.2-R (Interim), “Mandatory
Procedures for Major Defense Acquisition Programs (MDAPs) and Major
Automated Information System (MAIS) Acquisition Programs,” January 4, 2001,
establishes life-cycle procedures and requires earned value management on
significant contracts and subcontracts within all acquisition programs.

DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information
Technology Security Certification and Accreditation Process,” December 30,
1997. DoD Instruction 5200.40 applies to the acquisition, operation, and
sustainment of any DoD system that collects, stores, transmits, or processes
unclassified or classified information. The Assistant Secretary of Defense for
Command, Control, Communications, and Intelligence oversees and reviews the
implementation of DoD Instruction 5200.40, which establishes a standard process,
set of activities, general task descriptions, and a management structure to certify
and accredit information technology systems that will maintain the security
posture of the Defense Information Infrastructure. The key to DoD Instruction
5200.40 is the agreement between the information technology system PM, the
Designated Approving Authority, the Certification Authority, and the user
representative. Those managers resolve critical schedule, budget, security,
functionality, and performance issues. The agreement is documented in the
System Security Authorization Agreement that is used to guide and document the
results of the certification and accreditation. The objective is to use the System
Security Authorization Agreement to establish a binding agreement on the level of
security required before the system development begins or before changes to a
system are made.




                                    19
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Investment and Acquisition

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Program Manager, Joint Simulation System
Program Manager, Warfighters Simulation 2000

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Program Manager, Joint Simulation System Maritime
Program Manager, United States Marine Corps Development Agent

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Program Manager, National Air and Space Model




                                         20
Other Defense Organizations
Director, Joint Warfighting Center
Director, Defense Intelligence Agency
   Inspector General, Defense Intelligence Agency
Inspector General, National Reconnaissance Office
Director, National Security Agency
   Inspector General, National Security Agency

Non-Defense Federal Organization
Office of Management and Budget, National Security Division

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Permanent Select Committee on Intelligence




                                         21
Program Office, Joint Simulation System
Comments
                                          Final Report
                                          Reference




                     23
Final Report
 Reference




               24
     Final Report
      Reference




25
Final Report
 Reference




Pg 4

Pg 4




Pg 4




               26
      Final Report
       Reference




     Pg 4


     Pg 4




     Pg 4




     Pg 5


     Pg 5


     Pg 5




27
Final Report
 Reference




Pg 5




Pg 5



Pg 5




Pg 5




Revised
Pg 5




               28
      Final Report
       Reference




     Pg 5




29
Final Report
 Reference




Pg 6




Pg 6




Pg 6




               30
      Final Report
       Reference




     Revised
     Pg 6




31
Final Report
 Reference




Revised
Pg 6




Pg 7




               32
      Final Report
       Reference




     Pg 7




     Pg 7




     Pg 7




     Pg 7




     Pg 7




33
Final Report
 Reference




Pg 7


Pg 8




Pg 8


Pg 8


Revised
Pg 8




Revised
Pg 8




Pg 8




               34
      Final Report
       Reference




     Pg 9




     Revised
     Pg 9




     Pg 9



     Revised
     Pg 10




35
Final Report
 Reference




Pg 10




Pg 10



Pg 10




Pg 10


Pg 10




Revised
Pg 12




               36
      Final Report
       Reference




     Pg 12




     Pg 14



     Pg 14



     Pg 14




37
Final Report
 Reference




Pg 14


Pg 14



Pg 14




               38
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary Ugone
Charles Santoni
Sean Mitchell
Averel Gregg
John Mitton
Patricia Joyner
David Huff
Bridget Yakley
